No. 20-255

In The

MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
v.
B.L., A MINOR, BY AND THROUGH HER FATHER,
LAWRENCE LEVY AND HER MOTHER, BETTY LOU LEVY,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
BRIEF OF CURRENT AND FORMER STUDENT
SCHOOL BOARD MEMBERS AS AMICI
CURIAE SUPPORTING RESPONDENTS
Hyland Hunt
Counsel of Record
Ruthanne M. Deutsch
DEUTSCH HUNT PLLC
300 New Jersey Ave. NW
Suite 900
Washington, DC 20001
(202) 868-6915
hhunt@deutschhunt.com

TABLE OF CONTENTS
INTEREST OF AMICI CURIAE................................. 1
INTRODUCTION
AND
SUMMARY
OF
ARGUMENT ................................................................ 3
ARGUMENT ................................................................ 6
The First Amendment Prohibits Expanding A
School’s Regulatory Ambit To Cover Virtually All
Student Speech. ........................................................... 6
A. Permitting Schools to Regulate OffCampus Speech “Directed” at the School
Would Chill Core Political Speech. ................. 6
B. Granting Schools Authority to Regulate
Non-Threatening, Non-Harassing OffCampus
Speech
Would
Be
an
Unprecedented Intrusion into Students’
Personal Lives. .............................................. 19
CONCLUSION .......................................................... 23
APPENDIX ................................................................ 1a

(i)

ii
TABLE OF AUTHORITIES
Cases
Bethel School District No. 403 v. Fraser,
478 U.S. 675 (1986) ......................................... 20, 21
Hazelwood Sch. Dist. v. Kuhlmeier,
484 U.S. 260 (1988) .............................................. 10
Hustler Magazine v. Falwell,
485 U.S. 46 (1988) ................................................. 19
Morse v. Frederick,
551 U.S. 393 (2007) ....................................... 6, 7, 20
NAACP v. Button,
371 U.S. 415 (1963) ......................................... 18, 22
Packingham v. North Carolina,
137 S. Ct. 1730 (2017) ........................................... 16
Reno v. ACLU,
521 U.S. 844 (1997) ......................................... 16, 22
Snyder v. Phelps,
562 U.S. 443 (2011) ........................................... 8, 17
United States v. Alvarez,
567 U.S. 709 (2012) ............................................... 18
United States v. Stevens,
559 U.S. 460 (2010) ......................................... 15, 17

iii
Tinker v. Des Moines Ind. Cmty. Sch. Dist.,
393 U.S. 503 (1969) ........................................passim
West Virginia Bd. of Educ. v. Barnette,
319 U.S. 624 (1943) ............................................... 14
Other Authorities
Lateshia Beachum, Georgia school reverses
suspension of teen who shared viral photo of
hallway packed with students,
Wash. Post (Aug. 7, 2020) ...................................... 7
Meg Benner, et al., Elevating Student Voice in
Education, Ctr. for Am. Progress
(Aug. 14, 2019) ..................................................... 11
Cal. Student Bd. Mbr. Ass’n, Newsroom
(Mar. 29, 2021) ..................................................... 13
CivXNow, Founder ...................................................... 3
Directory of State Laws Affecting Students on School
Boards, SoundOut .................................................. 1
Linda Jacobson, Students Bring Youthful Perspective
to State Ed. Boards, Educ. Week
(Jan. 21, 2004) ...................................................... 11
Avani Kalra, Covering misconduct allegations
as a student journalist, Columbia Journalism
Review U.S. Project (Oct. 3, 2019) ....................... 10

iv
Rebecca Klein, Wesley Teague, Kansas Student,
Suspended After Tweeting About High School’s
Sports Program, HuffPost (May 9, 2013) ............ 15
Los Angeles Unified Dist., Fingertip Facts
2020-21 ................................................................. 12
Juliet Macur, Gymnasts Worldwide Push Back on
Their Sport’s Culture of Abuse, N.Y. Times (Aug.
3, 2020) ................................................................... 9
Nat’l Sch. Bd. Ass’n, Students Serving
on School Boards: Democratic
Education in Action (Feb. 4, 2021) .......... 11, 12, 14
Michael Niehoff, Int’l Soc’y for Tech. in Educ.,
9 ways real students use social media for good
(Oct. 2, 2019) ........................................................ 14
Stephen Sawchuk, Few Student Board Members Can
Vote. Should That Change?, Educ. Week
(June 11, 2019) ..................................................... 12
Ashley E. Stirling & Gretchen A. Kerr,
Initiating and Sustaining Emotional Abuse in the
Coach–Athlete Relationship, 23 J. Aggression,
Maltreatment & Trauma 116 (2014) ..................... 9
David Wheeler, Do Students Still Have Free Speech
in School?, The Atlantic (Apr. 17, 2014) ......... 9, 10
Alexander Wolff, Is the era of abusive college coaches
finally coming to an end?, Sports Illustrated (Sept.
29, 2015) ............................................................... 10

INTEREST OF AMICI CURIAE1
To ensure that school governance reflects
students’ perspectives, most States authorize or
require local school districts to include student
members on their local school boards. See Directory of
State Laws Affecting Students on School Boards,
SoundOut, https://tinyurl.com/f64pf26. Many States
have student positions on the board of education at the
state level as well. Id. Student members may be
elected or appointed, depending on the State, and in
some States have the same voting rights as other
school board members. Id. Amici are 192 current and
former student school board members from across the
country, who serve or have served on school boards for
local school districts in 28 States and territories or as
student representatives on state boards of education.
Amici’s experience reflects a broad range of school
settings, from large urban school districts in
California and Florida to small districts in Montana
and Alaska, and everything in between. The names of
amici are listed in an appendix to this brief.
To amici’s knowledge, this brief marks the first
time that current and former student school board
members have organized nationally—here to advocate
before the United States Supreme Court on a pressing
legal issue and provide their unique perspective as
student school board members. Why now? Because
the question presented poses grave risks not only to
Counsel of record for all parties consented to the filing of
this brief. S. Ct. R. 37.3(a). No counsel for any party authored
this brief in whole or in part, and no person or entity other than
amici curiae or their counsel made a monetary contribution
intended to fund the brief’s preparation or submission.
1

(1)

2
students’ free speech rights, but also to school boards’
ability to learn of and respond to problems in their
districts. In recent years, many school districts have
permitted students greater voice and responsibility in
school decision-making. But such systems work only if
students are free to express opinions on school policies,
events, and decisions—especially opinions distasteful
to administrators or unpopular with other students.
As students who have participated in both setting
school policy as school board members and abiding by
that policy as students, amici strongly endorse school
districts’ legitimate interests in regulating off-campus
behavior that directly impairs the ability of other
students to learn, such as threats, bullying, or
harassment. Respondents rightly note that nothing in
the Third Circuit’s decision disturbs school districts’
well-established authority to address those concerns;
school districts have ample constitutional avenues to
regulate such harmful conduct.
Amici write separately to emphasize that the
expansive and unprecedented authority to regulate
off-campus speech claimed by the school district here
would subject a great deal of core political speech to
regulatory scrutiny and chill students from critiquing
the school or freely using their voices to advocate for
change. Such student speech is essential not only as a
constitutionally protected interest itself, but also
because it helps preserve the critical role that schools
can play as laboratories of civic engagement where
students can practice democracy (including the right
to criticize) and learn to use their voices effectively and
responsibly to advocate for needed changes.

3
INTRODUCTION
AND SUMMARY OF ARGUMENT
As Justice O’Connor explained, the “practice of
democracy is not passed down through the gene pool.
It must be taught and learned anew by each
generation
of
citizens.”
CivXNow,
Founder,
https://tinyurl.com/628bes66. That teaching and
learning takes place while young people are students,
but not necessarily, and certainly not exclusively, in
classrooms. Instead, practical experiences shape
learning, and such shared moments include students
using their voices to express dissent about school
issues—to mobilize others, and to advocate for and
achieve change.
Although a disgruntled Snap about failure to
make the varsity cheerleading team might seem far
afield from the “practice of democracy,” the distance is
not so great. The school district’s effort to police a
profane Snap in the interest of “team unity” embraces
an unprecedented expansive authority to regulate core
political speech by students about their governing
body, the school. And the claimed authority to
suppress speech is not subject to limits of time or
place, but only to a much diminished and increasingly
vague standard for constitutional protection: Tinker’s
“substantial disruption” test.
By definition, the very speech that triggers school
authority, in Petitioner’s view—speech about the
school—is likely to be political. The school is students’
community, where they spend most of their waking
hours. And school decisions and policies on a wide
variety of issues are hotly contested political topics or

4
matters of great public concern to the members of that
community: reopening schools during the pandemic,
budget cuts, school discipline, abusive coaching
practices, staff misconduct—the list goes on.
If past is prologue, schools will not hesitate to use
their newfound authority to censor, punish, or
pressure students who express dissenting or
controversial views on such core governance issues.
And even if only a few suspensions are handed down,
the mere knowledge that the school is scrutinizing
every statement a student makes on social media for
signs of possible disruption will cast a pall over
student speech and lead many students to self-censor.
Such chilling effects could silence speech that
spurs needed reforms. Amici student school board
members depend upon robust and open channels of
communication with other students to help them
identify and address issues of concern to the school
community. If fear of punishment stifles student
speech, student school board members cannot perform
that function, and school governance will suffer.
Not all student off-campus speech is political, of
course. Sometimes a profane Snap is just that. But
students, no less than adults, are entitled to the
breathing space provided by the First Amendment to
engage in even silly or intemperate speech. Off
campus, it is (if anyone) parents, not schools, that
should set the guidelines for good taste and civility.
Of course, when off-campus student behavior
crosses the line to harassing or bullying another
student (or teacher or school staff person), or
threatening violence, that is a different story. No one
wants to disable schools from being able to address

5
such conduct, least of all amici, many of whom have
fought hard for schools to take seriously the problem
of harassment. But the Third Circuit’s rule takes
nothing away from schools’ ability to address that
problem. And the well-established tools that schools
have at their disposal to deal with harassment or
bullying—unlike the unprecedented power grab
claimed here—do not subject vast swaths of protected
speech to the chilling effect of government scrutiny.
Like any medium of communication, social media
can be used for bad ends. But it is mostly used by
students in beneficial ways, from political speech and
organizing to collaborating on school projects and
volunteer efforts, to displaying creativity and
maintaining interpersonal relationships. And during
the past year, in the face of a pandemic, when virtual
student gatherings have often been the only ones
available, ensuring students’ right to express dissent
is even more important. The First Amendment shields
such student communication, away from school and
outside the school day, from school regulation.

6
ARGUMENT
The First Amendment Prohibits Expanding A
School’s Regulatory Ambit To Cover Virtually
All Student Speech.
A.

Permitting Schools to Regulate OffCampus Speech “Directed” at the
School Would Chill Core Political
Speech.

1. Make no mistake: students’ off-campus core
political speech is threatened here. Even when it takes
place on campus, political speech “implicat[es]
concerns at the heart of the First Amendment.” Morse
v. Frederick, 551 U.S. 393, 403 (2007). A fortiorari,
political speech off campus is “at the core of what the
First Amendment is designed to protect.” See id.
(internal citation and quotation marks omitted). Yet
Petitioner and its amici claim authority to scrutinize
such speech in search of disruptive effects whenever
the speech is “directed” at the school, Pet. Br. 13, or
“directly relate[s] to on-campus classes, extracurricular
activities, or members of the school community,” see
Amicus Br. of Nat’l Sch. Bd. Ass’n, et al., at 11–12
(“NSBA Br.”). In other words, whenever students talk
about school to the public or another member of the
school community, particularly on social media. Which
is to say, virtually all student speech.
Attempting to minimize the degree to which this
sweeping authority would intrude on political speech,
Petitioner and its amici delimit “political speech” as
something that, by definition, does not involve the
school. See, e.g., NSBA Br. 4 (describing “political

7
speech” as involving “subjects that have no direct
connection to the school”). But the opposite is true.
Much of the time, speech about the school is political—
by definition. Public schools are agents of the State;
when students comment about the actions of a school
administrator or school policy, they are engaging in
core political speech about the public officials and
state policies that have the most impact in their lives.
Cf. Morse, 551 U.S. at 424 (Alito, J., concurring)
(“When public school authorities regulate student
speech, they act as agents of the State[.]”).
No one can deny that the question of whether and
how schools should reopen during the pandemic, for
example, is a political issue. Yet student speech on
these issues has not infrequently drawn the ire of
school administrators. Two students in Georgia were
suspended for posting a picture on social media of
students crowding the hallway in their high school
without masks; the school reversed itself only after a
media outcry. See Lateshia Beachum, Georgia school
reverses suspension of teen who shared viral photo of
hallway packed with students, Wash. Post (Aug. 7,
2020), https://tinyurl.com/mh8j7rtd. And one amicus
student school board member reports that the county’s
activities director attempted to pressure him to cease
organizing off-campus protests with other students
against the forced return of the most medically
vulnerable teachers to physical campuses, citing nonexistent rules against his advocacy and threatening to
write them into policy.
There are many other examples of off-campus
political speech that would be considered “directed” at
the school under Petitioner’s test, or “intentionally

8
target[ed]” at “specific school functions or programs”
under the Solicitor General’s taxonomy (SG Br. 24).
One amicus student school board member has
witnessed a robust social media discussion among
students in his district about the district’s worst-inthe-State record for suspending male AfricanAmerican students. Another witnessed how students
flocked to social media to protest when the district
responded to budget cuts by abruptly eliminating
several teacher positions, prompting the reassignment
of many of the most effective teachers.2
Off-campus posts on social media critical of staff
treatment of students or classroom policies are
likewise “political” in the public-school context and are
examples of speech on “matters of public concern” to
the school community falling within the heartland of
First Amendment protection, see Snyder v. Phelps, 562
U.S. 443, 451–52 (2011). Yet under the regulatory
regime proposed by Petitioner and its amici—where
any critique can be framed as a significant
disruption—such complaints posed to any other
member of the school community at any time or place
2

The Solicitor General attempts to cabin her “intentionally
targets” test by requiring the speech to relate to “matters
essential to or inherent in the functions or programs … such that
the speech has the potential to substantially undermine the
function or program.” SG Br. 24. But this essentiality criterion
provides no limit at all, much less fences out school regulation of
off-campus political speech. Take student speech about racial
discrimination in school suspensions. Fairness—and the
perception of fairness—are presumably “essential” to an effective
school discipline program, and a school could easily claim that
student speech questioning the even-handedness of suspensions
“substantially undermined” the school discipline program.

9
would be subject to school regulation, and likely
heavy-handed regulation at that. See David Wheeler,
Do Students Still Have Free Speech in School?, The
Atlantic (Apr. 17, 2014), https://tinyurl.com/wrydc6pu
(describing how a school forced a student to turn over
her Facebook password after she posted that a school
employee was “mean” to her). Given inherent power
imbalances, students reasonably fear that schools will
not look kindly on efforts to publicize problems within
the school to the broader community. One amicus
student school board member reports that after the
student raised concerns outside the school about
school counselors being stretched too thin, the
principal ordered the student to his office, yelled at the
student for “going over his head,” and said the student
was a “child” who “had no right” to bring up this issue.
Extracurriculars like school sports are not
immune from issues of public concern, either. Take the
well-recognized problem with abusive coaching
practices. See Ashley E. Stirling & Gretchen A. Kerr,
Initiating and Sustaining Emotional Abuse in the
Coach–Athlete Relationship, 23 J. Aggression,
Maltreatment & Trauma 116, 117 (2014) (estimating
that “emotionally abusive coaching practices are
experienced by 22% to 25% of competitive athletes”).
Students are often reluctant to report these painful
experiences. Id. A student who has been enmeshed in
a sport for years where harsh coaching is the norm
may well question whether what they are experiencing
is abuse or normal, and social media can provide a
welcome means of reaching out to others for support.
See Juliet Macur, Gymnasts Worldwide Push Back on
Their Sport’s Culture of Abuse, N.Y. Times (Aug. 3,

10
2020), https://tinyurl.com/3shx7b5b (reporting how
gymnasts were “embolden[ing]” others to share abuse
experiences on social media using a hashtag). At the
college level, abuse is more often “coming to light
because more players, empowered by digital tools, are
standing up for themselves.” Alexander Wolff, Is the
era of abusive college coaches finally coming to an
end?,
Sports
Illustrated
(Sept.
29,
2015),
https://tinyurl.com/4s52jyf5.
High school students, too, deserve the breathing
space to object to coaching methods or simply to ask,
“is this right?” But it is easy to imagine such posts cast
as being harmful to “team morale and chemistry” (Pet.
Br. 31) and punished by schools, especially if other
teammates think the coach is simply applying “tough
love.”
Beyond sports, just as student journalism has
often revealed serious crimes within schools, offcampus student speech “directed at” the school is an
important
avenue
for
transparency
and
accountability. See Wheeler, supra (describing
examples where high school students uncovered a
security breach related to standardized test answers
and a school’s attempt to minimize an alleged rape).
Unless limited by state law, schools usually have
authority to constrain what is published in schoolsponsored media. Hazelwood Sch. Dist. v. Kuhlmeier,
484 U.S. 260, 270–71 (1988). And they have exercised
that authority to censor publication of stories about
staff misconduct. See Avani Kalra, Covering
misconduct allegations as a student journalist,
Columbia Journalism Review U.S. Project (Oct. 3,
2019), https://tinyurl.com/3jkdpndh (describing school’s

11
initial censorship of a story alleging a guidance
counselor engaged in unprofessional conduct). These
constraints on other avenues for transparency and
accountability make protecting students’ off-campus
social media reporting all the more critical.
2. We should encourage, not chill, the political
speech that would be caught up in the 24-7 schooldiscipline dragnet proposed by Petitioner and its
amici. Giving students space to speak freely about
matters of public concern that arise in their schools is
essential to student engagement in school governance,
of which student school board members are a crucial
component. All school board members—but especially
student school board members—need to be able to
hear from students themselves, at the earliest
opportunity, to identify and resolve issues affecting
the school community.
Student involvement in school governance
“provides a point of view that is often
underrepresented,” “shed[s] light on new approaches
or solutions,” and “creates a sense of ownership that
can lead to higher student performance.” Meg Benner,
et al., Elevating Student Voice in Education, Ctr. for Am.
Progress (Aug. 14, 2019), https://tinyurl.com/29x3aa3u.
As part of a movement toward greater student
participation in school governance, the majority of
States (34) authorize or require local school districts to
include student positions on their school boards. See
NSBA, Students Serving on School Boards:
Democratic Education in Action (Feb. 4, 2021),
https://tinyurl.com/pazze2v4 (NSBA, Students Serving).
At least 13 States have student members on their state
boards of education. Linda Jacobson, Students Bring

12
Youthful Perspective to State Ed. Boards, Educ. Week
(Jan. 21, 2004), https://tinyurl.com/ym56nppz.
Although research is limited, “there is a consensus on
the positivity of having students serve on the board.”
NSBA, Students Serving. Student school board
members “represent and advocate for their
communities and use their role to improve education
for all students of their districts.” Id.
“[S]tudent board members have to be diligent in
representing their constituencies just as their adult
colleagues do: They conduct regular school visits and
submit to interviews with school newspapers.”
Stephen Sawchuk, Few Student Board Members Can
Vote. Should That Change?, Educ. Week (June 11,
2019), https://tinyurl.com/53u3jcmf. This is not an
easy task—some amici served on school boards for
districts with more than 650,000 enrolled students.
See Los Angeles Unified Dist., Fingertip Facts 202021, https://tinyurl.com/5hcdzhrw.
Student board members can only represent and
advocate for students districtwide, however, if they
can hear from those students about what is troubling
them about their schools. Amici student board
members indicate that they use multiple means to
gather student input, including surveys, student
forums, and public comment at board meetings. But
unsurprisingly, they report that social media is a
crucial information-gathering method.
Just as moving from class to class in the hallway,
or standing in the cafeteria line, or sitting in the
bleachers in sporting events, allows student board
members to keep their fingers on the pulse of issues of
concern at their own school, so can participating on

13
social media (if speech is not unduly chilled) allow
student school board members to keep up to date on
issues of concern in their districts. Especially because
students who might not feel comfortable making
formal complaints—at least in the first instance—may
be willing to raise issues in conversations on social
media. Social media posts can then call the attention
of student board members, who are empowered to help
investigate further.
As the California Student Board Member
Association explains, if schools can limit the “right of
students to share their concerns, speak out, and have
open dialogue off campus,” it “would damage [their]
ability as Student Board Members to present a full
picture of student experience to school districts across
the state.” Cal. Student Bd. Mbr. Ass’n, Newsroom
(Mar. 29, 2021), https://tinyurl.com/ddys257u. Because
they are far more likely than adult school board
members to be present in the social media forums
where students gather and discuss their schools (just
as they are far more likely to be standing on the
cafeteria line, or sitting in the bleachers during the
games), student school board members are wellpositioned to observe where there are groundswells of
discontent and problems to be addressed. But student
board members can be attuned to their peers’ concerns
only if students feel free to express their discontent
and dissent.
When it works well, the ability of students to
engage with their student school board members, and
of the student school board members to channel those
concerns to the full governing boards, is a training
ground for civic engagement. One amicus student

14
board member described how the abrupt elimination
of teaching positions caused “students who never
cared about student government [to] become invested”
and how the social media debate on those issues
“encouraged students to be more civically engaged.” As
the NSBA agrees, “[o]ne way to nurture democratic
citizenship is to engage students in the governing
process of local school boards.” NSBA, Students
Serving. But if students are chilled in their ability to
speak about their schools, and especially to express
dissatisfaction—as will certainly be the case under the
expansive speech-regulation regime proposed on
Petitioner’s side—true training in democratic
citizenship will be neglected, not nurtured.
As this Court explained many decades ago, that
schools “are educating the young for citizenship is
reason for scrupulous protection of Constitutional
freedoms of the individual,” not their diminishment,
lest we “strangle the free mind at its source and teach
youth to discount important principles of our
government as mere platitudes.” West Virginia Bd. of
Educ. v. Barnette, 319 U.S. 624, 637 (1943).
3. Students also use social media for more
quotidian communication, of course. Social media, now
more than ever, allows students to collaborate, gather
data for projects, and showcase their work and
creativity. See Michael Niehoff, Int’l Soc’y for Tech. in
Educ., 9 ways real students use social media for good
(Oct. 2, 2019), https://tinyurl.com/24hcf2ss. Sometimes
students use social media just for joking around, like
a tweet for which a student was suspended, stating
that his high school sports program “is equivalent to
WSU’s football team”—a university team that had

15
been disbanded. See Rebecca Klein, Wesley Teague,
Kansas Student, Suspended After Tweeting About
High School’s Sports Program, HuffPost (May 9,
2013), https://tinyurl.com/vd43acn5. Much of the
communication on social media is just ordinary
conversations among friends—including grumbling
about
teachers,
homework,
and
coaches—
conversations that might have taken place on the
phone or in person years ago, but now take place
online (and especially so during the pandemic).
As for all of us, “[m]ost of what [students] say to
one another lacks religious, political, scientific,
educational, journalistic, historical, or artistic value
(let alone serious value).” United States v. Stevens, 559
U.S. 460, 470 (2010) (internal quotation marks
omitted). But “it is still sheltered from Government
regulation,” id.; and so too should be non-harassing,
non-violent student off-campus speech.3 The fact that
schools can now more easily see, and therefore
regulate, vast realms of interpersonal communication
does not mean they should. “In the absence of a
specific showing of constitutionally valid reasons to
regulate their speech, students are entitled to freedom
of expression of their views.” Tinker v. Des Moines Ind.
Cmty. Sch. Dist., 393 U.S. 503, 511 (1969).
4. The combination of Petitioner’s “directed” test
with Tinker’s “substantial disruption” standard
provides no real safeguards for students’ speech—
including core political speech. Granting schools the
3

Everyone agrees that schools can regulate off-campus
harassment of members of the school community, but that
authority is not at risk here. See pp. 21–22, infra.

16
expansive
authority
Petitioner
seeks
will
unreasonably chill speech on matters of public
concern.
As for the “directed” test, it is a low bar, satisfied
whenever the student can “reasonably foresee” that
speech related to the school would reach the school.
See Pet. Br. 28. Petitioner does not give a single
example of a realistic social media communication
that would not be so “directed.” See id. (giving only
examples of “[o]rdinary conversations with family or
neighbors” and sketches/graphics that were not
intended to be shared at all). With good reason. Most
students’ social media friends and followers commonly
include other students. See also SG Br. 23 (agreeing
that “anything [students] post online reasonably could
be expected to ‘reach’ the school”).
And for today’s students, few conversations take
place entirely outside of social media, as students may
post about even casual in-person conversations, or loop
remote friends into the conversation, using everpresent cell phones. As this Court has recognized, “the
most important places (in a spatial sense) for the
exchange of views …. is cyberspace—the vast
democratic forums of the Internet in general, and
social media in particular.” Packingham v. North
Carolina, 137 S. Ct. 1730, 1735 (2017) (citation and
internal quotation marks omitted). Even more than
adults, students “employ these websites to engage in a
wide array of protected First Amendment activity on
topics ‘as diverse as human thought.’” Id. at 1735–36
(quoting Reno v. Am. Civil Liberties Union, 521 U.S.
844, 870 (1997)). The upshot is that pretty much any

17
student speech even tangentially related to the school
will meet Petitioner’s “directed” test.
The district’s protest (Pet. Br. 29–30) that only
“disruptive” speech will be punished does nothing to
hold back the chill. Given the expansive conception of
disruption pressed here, including impairment of
“team morale,” Pet. Br. 31, there is little reason to
trust in schools’ restraint, and every reason to believe
that any newfound authority will reach far beyond
campus into students’ homes, parks, shopping malls,
or, in other words, every corner of the virtual public
square. Cf. Stevens, 559 U.S. at 480 (“[T]he First
Amendment protects against the Government; it does
not leave us at the mercy of noblesse oblige.”).
What’s worse, because the “substantial
disruption” test must, in the off-campus context, hinge
on listeners’ reactions (or feared reactions), it is all the
more likely that schools will unconstitutionally punish
students for speech that is merely controversial. See
Resp. Br. 17–18. In an on-campus scenario, where the
speaker may cause the disruption, e.g., when a student
interrupts physics class to deliver an anti-war speech,
the test may at least sometimes be applied without
resort to the listeners’ reactions (though it also does—
in a major break with First Amendment core
principles, see Resp. Br. 10—permit regulation of
speech based on listeners’ reactions in the unique
context of the school environment). But when the
speaker is off campus, any disruption within the
school can be caused only by the perceived reaction of
listeners. Like any standard based on listeners’
reactions, this standard is “highly malleable” and has
“an inherent subjectiveness about it.” See Snyder, 562

18
U.S. at 458 (internal quotation marks omitted). Just
as a malleable standard leaves juries too much room
to punish speech based on viewpoint, the disruption
standard, when applied to off-campus speech, risks the
imposition of punishment “on the basis of the [school
administrators’] tastes or views, or perhaps on the
basis of their dislike of a particular expression.” Id.
(citation and internal quotation marks omitted).
Because it is so hard to judge ex ante when school
administrators will view speech as so upsetting that
listeners’ reactions justify shutting it down, the
“substantial disruption” test will have a widespread
chilling effect on students’ off-campus speech.
Regardless of whether they are ever punished for
their speech, students would have to contend with the
fact that regulators are watching anything they say on
social media that mentions the school, a schoolsponsored activity, or a member of the school
community—which is to say, nearly everything they
say—24 hours a day, 7 days a week. As with other
expansive assertions of government authority to
punish speech, the “mere potential for the exercise of
that power casts a chill ... the First Amendment cannot
permit.” United States v. Alvarez, 567 U.S. 709, 723
(2012). And the chill would not be felt evenly. Those
students who have been especially critical of
administrators would have extra reason to be careful.
Or those students who are members of groups
disproportionately censured by schools for nebulous
offenses like “disrespect.” See SG Br. 21.
“First Amendment freedoms need breathing
space to survive.” NAACP v. Button, 371 U.S. 415, 433
(1963). As applied to off-campus speech, the

19
“substantial disruption” test provides none. Petitioner
claims (Pet. Br. 43–46) that it is simply too difficult to
draw lines at the outer edges of what counts as the
“school context.” But the answer cannot be to erase all
lines between school and home, and simply assert
school authority to punish any speech that “involves
the school” (id. at 46), limited, if at all, only by a
malleable “disruption” standard. This would leave
students with effectively no space where they are
entitled to full First Amendment protection, even
when they engage in core political speech.
B.

Granting Schools Authority to
Regulate Non-Threatening, NonHarassing
Off-Campus
Speech
Would
Be
an
Unprecedented
Intrusion into Students’ Personal
Lives.

1. As with adults, it is to be expected that not all
student speech critical of a school will be “reasoned or
moderate,” and schools might be “subject to vehement,
caustic, and sometimes unpleasantly sharp attacks.”
See Hustler Magazine v. Falwell, 485 U.S. 46, 51
(1988) (internal citation and quotation marks
omitted). Some critiques might be in bad taste, use
profanity, or memes meant to grab the audience’s
attention—the modern-day equivalent of the often
“slashing and one-sided” political cartoon, see id. at 54.
This speech still carries real value because the depth
of student feeling—perhaps manifest in over-the-top
rhetoric or vulgar expression—may convey the
urgency of a problem or the deep impact some school
decision has on the student body. As the amicus

20
involved in protesting the district’s overnight
elimination of teaching positions described it, many
students who posted on social media about that issue
“used profane language because they were emotional
and unhappy about the situation.” Even such posts,
however, contributed to organizing a movement to
protest, and ultimately reverse, the teaching cuts.
The concerned students’ posts might, in some
cases, have exceeded the bounds of good taste and
civility. But until now, it has been settled that
teaching (and policing) “the boundaries of socially
appropriate behavior,” Bethel School Dist. No. 403 v.
Fraser, 478 U.S. 675, 681 (1986), outside of school is
the job of parents, not schools. Cf. Morse, 551 U.S. at
424 (Alito, J., concurring) (“It is a dangerous fiction to
pretend that parents simply delegate their
authority—including their authority to determine
what their children may say and hear—to public
school authorities.”).
If schools were granted the authority sought by
Petitioners, however, it would be schools, not parents
and students, who police large swaths of students’ offcampus speech for bad manners and offensiveness.
Despite this Court’s warning that schools cannot
regulate even in-school speech simply because it is
“offensive,” Morse, 551 U.S. at 409, the facts of this
case demonstrate that schools effectively seek the
authority to punish off-campus speech that listeners
find offensive, because that is all the so-called
“disruption” amounts to here. See Pet. Br. 6–7 (noting
that other students were “upset” by B.L.’s post).
But the First Amendment is a “hazardous
freedom … that is the basis of our national strength

21
and of the independence and vigor of Americans who
grow up and live in this relatively permissive, often
disputatious, society.” Tinker, 393 U.S. at 508–09. On
campus, schools need not afford students the “same
latitude” that adults enjoy to utter “vulgar and
offensive terms,” and may choose to inculcate “habits
and manners of civility.” Fraser, 478 U.S. at 682–83.
Outside of school, the bounds of proper decorum and
the latitude to offend should be left up to students and
their parents as they learn to navigate the
“permissive, often disputatious, society” we share. See
Tinker, 393 U.S. at 509.
2. Harassing another student (or teacher, or staff
member) is, of course, a different behavior altogether
than giving offense. In their capacities as both school
leaders and students, amici wholeheartedly agree
with both parties to this case that schools require the
authority to protect students, staff, and teachers from
threats, harassment, and bullying. See Pet. Br. 31–39;
Resp. Br. 25–26. Many student school board members
took strong stances against bullying and harassment
on social media as part of their platforms well before
schools took the issue seriously. In amici’s view,
schools should have—and do have—ample authority
under traditional First Amendment doctrine to
address such harmful conduct without needing to
invoke Tinker. See Resp. Br. 25–26 (summarizing
different ways schools can counteract threats,
bullying, and harassment).
The trouble with Petitioner’s emphasis on the
need to protect against harassment is that the Third
Circuit’s rule leaves intact school districts’ wellestablished ability to do so. That court expressly held

22
that “off-campus student speech threatening violence
or harassing particular students or teachers” was not
addressed by its holding and “would no doubt raise
different concerns and require consideration of other
lines of First Amendment law.” Pet. App. 34a.
Everyone agrees that protecting students from
harassment is vitally important. But schools can do
that without extending Tinker to any student speech,
made in any place and at any time, that mentions any
aspect of the school or school community. Seizing such
a broad authority to regulate virtually all student
speech to protect against harassment is not the
“[p]recision of regulation” that the First Amendment
demands. See NAACP, 371 U.S. at 438. Rather, it
“amount[s] to burning the house to roast the pig.”
Reno, 521 U.S. at 882 (internal citation and quotation
marks omitted). With respect to non-harassing, nonviolent speech—the only speech governed by the Third
Circuit’s rule—Petitioner has put forward no
conceivable interest that could justify such a sweeping
intrusion into students’ personal lives where family,
neighbors, religious leaders, or other guiding
influences, are the lodestar—not schools.
*****
Reading Petitioner’s brief, and especially its
amici, one might be forgiven for believing that social
media is a dystopian hellscape for students where
little occurs that is not bullying and harassment. See,
e.g., NSBA Br. 15–17. The same “virtual megaphone”
that can be used for ill (NSBA Br. 15) can be, and more
often is, used for good: to organize protests, to raise
awareness of social and political issues, and simply to
engage in the wide variety of communication essential

23
to interpersonal relationships. Student school board
members depend on the ability to listen to students
within a space where students can debate school
issues without fear of punishment, providing critical
inputs that improve school governance and student
outcomes. Outside of school, students, no less than
adults, deserve the breathing space the First
Amendment provides to develop and exercise their
voices on matters great and small, without fear of
government sanction.
CONCLUSION
The judgment of the Court of Appeals should be
affirmed.
Respectfully submitted.
Hyland Hunt
Ruthanne M. Deutsch
DEUTSCH HUNT PLLC
March 31, 2021

APPENDIX1
Omari Jahi Aarons
Prince George's County Public Schools, Maryland
2002-03
Haleemat Adekoya
Baltimore County Public Schools, Maryland, 2018-19
James Aguilar
San Lorenzo Unified School District, California
2017-18
Tessa Aguilar
Corona-Norco Unified School District, California
2020-21
Michelle Alas
Mt. Diablo Unified School District, California
2020-21
Haley Allen
Portland Public Schools, Maine, 2020-21
Kathya Correa Almanza
San Francisco Unified School District, California
2020-21
Julia Amann
Madison Metropolitan School District, Wisconsin
2020-21
Margarita Amezcua
State Board of Education, Washington, 2019-21
William Anderson
Frederick County Public Schools, Maryland, 2017-18
Heidi Andrade
San Benito High School District, California, 2020-21

1

All amici are signing this brief only in their individual
capacities and not as representatives of the boards on which they
serve or have served. Board names are listed only for purposes of
identification. In some cases, no board is listed at the request of
the individual amicus or the respective board.

(1a)

2a
Olivia Ang-Olson
Sacramento City Unified School District, California
2019-20
Lihame Arouna
New Haven Public Schools, Connecticut, 2019-21
Nicholas Asante
Montgomery County Public Schools, Maryland
2020-21
Itzary Avalos
Marshalltown Community School District, Iowa
2020-21
Zoe Babbit
Shaler Area School District, Pennsylvania, 2019-21
Noureen Badwi
State Board of Education, Maryland, 2019-20
Mete Bakircioglu
Lake Oswego School District, Oregon, 2020-21
Anchal Bhaskar
Capistrano Unified School District, California
2020-21
Caroline Binkley
Delaware City Local School District, Ohio, 2018-19
Aidan Blain
Santa Monica Malibu Unified School District
California, 2019-20
Brad Bloodworth
Howard County Public Schools, Maryland, 1989-90
Kevin Bokoum
Washington County Public Schools, Maryland
2020-21
Alice Arcieri Bonner
Baltimore County Public Schools, Maryland, 1998-99
Aislinn Bratt
Baltimore County Public Schools, Maryland, 2016-17

3a
Joseph Brawdy
Saint Helena Unified School District, California
2019-21
Alexya Brown
Calvert County Public Schools, Maryland, 2014-16
Kamarie Brown
Los Angeles Unified School District, California
2020-21
Emily Bylsma
Poway Unified School District, California, 2020-21
Joshua Camarillo
Fresno Unified School District, California, 2019-20
Austin Cantu
Waukegan Community Unit School District #60
Illinois, 2019-20
Sabrina Capoli
State Board of Education, New Jersey, 2020-21
Gema Quetzal Cardenas
State Board of Education, California, 2018-19
Drew Carter
Charles County Public Schools, Maryland, 2017-18
Isaiah Christopher Marquies Carter
Travis Unified School District, California, 2019-21
Ethan Castillo
Las Virgenes Unified School District, California
2019-20
Katherine Catulle
Garrett County Public Schools, Maryland, 2018-20
Katie Cheng
Dublin Unified School District, California, 2020-22
Emily Cheung
Portland Public Schools, Maine, 2020-22
Mackenzie Collett
Delaware City Local School District, Ohio, 2020-21

4a
Ethan Collier-Moreno
Sweetwater Union High School District, California
2019-20
Léo Corzo-Clark
Albany Unified School District, California, 2020-21
Jasper Coughlin
Board of Elementary and Secondary Education
Massachusetts, 2020-21
Adera Craig
Conejo Valley Unified School District, California
2020-21
Andrew Crosten
Allegany County Public Schools, Maryland
2004-05
Mark Crusante
Prince George's County Public Schools, Maryland
1999-00
Elyssa Cuevas
Island-wide Board of Governing Students, Guam
2020-21
Brittney Davis
Prince George's County Public Schools, Maryland
2005-06
Forrest Davis
Juneau School District, Alaska, 2020-21
Alpha Ibrahim Diallo
Washington County Public Schools, Maryland
2017-18
Rocco Diaz
Broward County Public Schools, Florida, 2020-21
Griffin Diven
Howard County Public Schools, Maryland, 2016-17
Claire Downing
Helena Public Schools, Montana, 2020-21

5a
Else Drooff
Anne Arundel County Public Schools, Maryland
2013-14
Hunter Drost
State Board of Education, Nevada, 2017-18
Nora Faverzani
State Board of Education, New Jersey, 2018-19
Anthony Fiore
New Haven Public Schools, Connecticut, 2020-22
Breana Fowler
Charlotte-Mecklenburg Schools, North Carolina
2020-21
Erin Fox
Howard County Public Schools, Maryland, 2000
Roel Jacob Nechaldas Francisco
Fairfield-Suisun Unified School District, California
2020-21
Julia Frank
School District of Philadelphia, Pennsylvania
2018-19
Daniel Furman
Howard County Public Schools, Maryland, 2000-02
Jonathan Galla
Baltimore County Public Schools, Maryland, 2013-14
Ally Gallant
Folsom Cordova Unified School District, California
2020-21
Alex Gallegos
State Board of Education, Nevada, 2020-21
Sahil Ganatra
State Board of Education, New Jersey, 2019-20
Andrew Gavelek
Howard County Public Schools, Maryland, 2007-08
Carter Gipson
Frederick County Public Schools, Maryland, 2016-17

6a
Alexa Gonzales
Pittsburg Unified School District, California, 2018-20
Eric Guerci
Montgomery County Public Schools, Maryland
2015-17
William Guisbond
Jamesville-Dewitt Central School District, New York
2019-20
Rachel Halbo
Sacramento City Unified School District, California
2018-19
Ava Hamelburg
Windsor Unified School District, California, 2020-21
Amiah Hanson
Durango School District 9-R, Colorado, 2020-22
Ian Herd
Charles County Public Schools, Maryland, 2020-21
Klaudia Hernandez
Marshalltown Community School District, Iowa
2020-21
Shavonne Hines-Foster
San Francisco Unified School District, California
2020-21
Joe Hofman
State Board of Education, Washington, 2017-19
Benjamin Holtzman
Los Angeles Unified School District, California
2017-18
Julia Hondal
Burlington School District, Vermont, 2020-21
Peter Horowitz
Ocean City School District, New Jersey, 2018-19
Jacob William Horstkamp
Anne Arundel County Public Schools, Maryland
2015-16

7a
Dahlia Huh
Montgomery County Public Schools, Maryland
2014-15
Isam Hussaini
Waukegan Community Unit School District #60
Illinois, 2020-21
Ilhaam Ikramullah
Hillsboro School District, Oregon, 2020-21
Anna Impellitteri
Boone County School District, Kentucky, 2018-19
Khymani James
Boston Public Schools, Massachusetts, 2020-21
Omar Jamil
Dustin Jeter
Montgomery County Public Schools, Maryland
2001-02
Angel Jimenez
El Monte Union High School District, California
2019-20
Sebastian D. Johnson
Montgomery County Public Schools, Maryland
2005-06
Fatima Kamara
Fontana Unified School District, California, 2020-21
Yoni Kashanian
Beverly Hills High School District, California
2020-21
Hope Stacey Khodaei
Prince George's County Public Schools, Maryland
1985-86
Dana Kim
Worcester County Public Schools, Maryland, 2018-19
Justin Kim
Montgomery County Public Schools, Maryland
2013-14

8a
Yeonjie Michelle Kim
Irvine Unified School District, California, 2020-22
Marcus Klein
Howard County Public Schools, Maryland, 1996-97
Jackson Klingenberg
Carroll County Public Schools, Maryland, 2019-20
Genavieve Koenigshofer
Capistrano Unified School District, California
2019-20
Caroline Krum
Oakdale Joint Unified School District, California
2020-21
Mika Renee Labadnoy
Island-wide Board of Governing Students, Guam
2019-20
Amber LaFranboise
San Jose Unified School District, California, 2020-21
Madison Lane
Grand Island Public Schools, Nebraska, 2019-20
Alexis Lashbaugh
Allegany County Public Schools, Maryland, 2017-18
Harris LaTeef
Fairfax County Public Schools, Virginia, 2014-15
Maxine Latterell
Portland Public Schools, Oregon, 2019-20
Nicholas Lefavor
Anne Arundel County Public Schools, Maryland
2012-13
Brian Lin
Alameda Unified School District, California, 2020-21
Rachel Lin
Howard County Public Schools, Maryland, 2015-16
Joshua Lynn Jr.
Baltimore City Public Schools, Maryland, 2018-20

9a
Christopher Mackley
Washington County Public Schools, Maryland
2018-20
Casey Maddock
State Board of Education, Maine, 2019-21
Audrey Mallah
Albany Unified School District, California, 2018-21
Jamie Martin
Howard County Public Schools, Maryland, 2003-04
Raven May
Waukegan Community Unit School District #60
Illinois, 2018-19
Bailey McCallister
Tahoma School District, Washington, 2019-21
Saanvi Mehrotra
Tahoma School District, Washington, 2020-21
Kelsey Meis
Cecil County Public Schools, Maryland, 2019-20
Rick Mikulis
Howard County Public Schools, Maryland, 2014-15
Miles Miller
Berkeley Unified School District, California, 2020-21
Henry Mills
Alameda Unified School District, California, 2019-22
Maxwell Mimaroglu
Jamesville-Dewitt Central School District, New York
2020-21
Sarah Moir
Baltimore County Public Schools, Maryland, 2002-03
Tinni Mukherjee
Dublin Unified School District, California, 2018-20
Paytan Murray
Snoqualmie Valley School District, Washington
2019-20

10a
Omaer Naeem
Allegany County Public Schools, Maryland, 2019-20
Sarah Nguyen
Sacramento Unified School District, California
2017-18
Sathvik Nori
Sequoia Union High School District, California
2020-21
Sabine Noyes
Nevada Joint Union High School District, California
2020-21
Tyler Okeke
Los Angeles Unified School District, California
2019-20
Joshua Oltarzewski
Harford County Public Schools, Maryland, 2018-19
Yota Omosowo
Oakland Unified School District, California, 2018-19
Greyson Orne
State Board of Education, Maine, 2021-22
Coral Ortiz
New Haven Public Schools, Connecticut, 2015-17
State Board of Education, Connecticut, 2017
Amanya Paige
Prince George’s County Public Schools, Maryland
2017-19
Xitlalic Palacios
El Monte Union High School District, California
2020-21
Brenna Pangelinan
State Board of Education, California, 2019-20
Hollie Pastorino
Dexter Community School District, Michigan
2017-19
Zachary Patterson
San Diego Unified School District, California
2019-21

11a
Sarah Perez
Frederick County Public Schools, Maryland, 2015-16
Derrick L. Plummer, Jr.
Prince George’s County Public Schools, Maryland
1998-99
Matt Post
Montgomery County Public Schools, Maryland
2017-18
Alfredo Praticò
School District of Philadelphia, Pennsylvania
2018-19
Benjamin Press
Fairfax County Public Schools, Virginia, 2015-16
Caroline Quevedo
Tahoma School District, Washington, 2019-21
Jane Ragland
Marshalltown Community School District, Iowa
2018-19
Jessica Ramos
Oakland Unified School District, California, 2020-21
Omer Reshid
Baltimore County Public Schools, Maryland, 2019-20
Thomas Ridenour
Calvert County Public Schools, Maryland, 2017-19
Mattie Ridgway
Western Placer Unified School District, California
2019-21
Lucie Roach
Calvert County Public Schools, Maryland, 2016-17
McKenna Roberts
State Board of Education, Washington, 2020-22
Jon Jeffrey Robinson
Anne Arundel County Public Schools, Maryland
1974-75
Luis Rodriguez
Grand Island Public Schools, Nebraska 2018-19

12a
Ela Ruf
Ojai Unified School District, California, 2020-21
Kendall Sanders
Charlotte-Mecklenburg Schools, North Carolina
2018-19
Gabriel Schuhl
Charlotte-Mecklenburg Schools, North Carolina
2019-20
Anna Selbrede
Howard County Public Schools, Maryland, 2017-18
Alison Serino
Montgomery County Public Schools, Maryland
1989-90
Josie Shaffer
Baltimore County Public Schools, Maryland, 2017-18
Isa Sheikh
Sacramento City Unified School District, California
2020-21
Nathaniel Shue
Portland Public Schools, Oregon, 2020-21
Beau Simon
Broward County Public Schools, Florida, 2018-20
Monica Simonsen
Howard County Public Schools, Maryland, 1995-96
Ishan Singh
Fresno Unified School District, California, 2020-21
Mica Smith-Dahl
Oakland Unified School District, California, 2019-20
Sage Snider
Anne Arundel County Public Schools, Maryland
2007-08
Tianna Staten
Wucomico County Public Schools, Maryland, 2018-19
Hailie Stevens
Riverside Unified School District, California, 2019-20

13a
Viveca Stucke
Bourne School District, Massachusetts, 2020-21
Frances Suavillo
Los Angeles Unified School District, California
2019-20
David Josiah Texeira
State Board of Education, Hawai’i, 2018-19
Emery Thul
Eau Claire Area School District, Wisconsin, 2020-21
Matthew Tibbitts
Board of Elementary and Secondary Education
Massachusetts, 2019-20
Nathaniel Tinbite
Montgomery County Public Schools, Maryland
2019-20
Maizie Tucker
Port Angeles School District, Washington, 2020-21
Doug Ulman
Howard County Public Schools, Maryland, 1994-95
Josie Urrea
Anne Arundel County Public Schools, Maryland
2018-19
Kate Voltz
Corvallis School District, Oregon, 2019-21
Jakob Wade
Fairbanks North Star Borough School District
Alaska, 2019-20
Deeksha Walia
Baltimore County Public Schools, Maryland, 2015-16
Michaela Klein Weinstein
Albany Unified School District, California, 2019-20
Daniella White
State Board of Education, Hawai’i, 2019-20
Autymn Wilde
State Board of Education, Washington, 2018-20

14a
Oluwatomi Williams
Howard County Public Schools, Maryland, 2011-12
Elijah Witt
Albemarle County Public Schools, Virginia, 2019-20
Jason Wu
State Board of Education, Maryland, 2020-21
Alan Xie
Montgomery County Public Schools, Maryland
2010-12
Amy Zhang
Charles Zimmerman
Delaware City Local School District, Ohio, 2017-18
Pallas Snider Ziporyn
Anne Arundel County Public Schools, Maryland
2005-06

